                                                                        Office ofInspector General

                                                                        u.s. Department of Homeland Security
                                                                        Washington, DC 20528




                                                                        Homeland
                                                                        Security
                                                    SEP 2 7 20lJ

MEMORANDUM FOR:                     Tony Russell
                                    Regional Administrator, Region VI
                                    Federal Emergency Management Agency

FROM:                               Matt Jadacki     41A~ ---::~,
                                    Assistant Inspecto~#
                                    Office of Emergency Management Oversight

SUBJECT:                            FEMA Public Assistance Grant Funds Awarded to
                                     Orleans Parish Criminal Sheriff's Office, Louisiana
                                    FEMA Disaster Number 1603-DR-LA
                                    Audit Report Number DD-II-24

We audited public assistance grant funds awarded to the Orleans Parish Criminal Sheriff s Office
in Orleans Parish, Louisiana (OPCSO) (Public Assistance Identification Number 071-UPP9W­
00). Our audit objective was to determine whether OPCSO accounted for and expended Federal
Emergency Management Agency (FEMA) grant funds according to federal regulations and
FEMA guidelines.

OPCSO received an award of$41.4 million from the Governor's Office of Homeland Security
and Emergency Preparedness (GOHSEP), a FEMA grantee, for emergency protective measures
(Category B work) resulting from Hurricane Katrina, which occurred on August 29,2005. The
award provided 100% funding for 77 projects (39 large and 38 small).1 The audit covered the
period August 29,2005, to February 11,2011, and included a review of24 large and 18 small
projects totaling $29.2 million, or 71 % of the total award for Category B projects. As of
February 11,2011, the cutoff date of our audit, OPCSO had claimed $18.4 million for the
projects we audited (see Exhibit, Schedule of Projects Audited). We also conducted aiimited
review of projects written for the City of New Orleans, Louisiana, because the city owned
several buildings that OPCSO used. This limited review consisted of verifying that work
authorized in the city's projects did not duplicate work authorized in OPCSO's projects.




I Federal regulations in effect at the time of the disaster set the large project threshold at $55,500. We previously
audited three large projects (360, 1320, and 15882) totaling $6.3 million, or 15% of the $41.4 million awarded for
Category B work, that were not in the scope of this audit. See OIG report, Orleans Parish Criminal Sheriff's Office,
DD-1O-08, issued March 31,2010.
We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based upon our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based
upon our audit objective. We conducted this audit according to the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We interviewed FEMA, GOHSEP, and OPCSO officials; reviewed judgmentally selected
samples of project costs (generally based on dollar value); and performed other procedures
considered necessary to accomplish our objective. We did not assess the adequacy of OPCSO’s
internal controls applicable to grant activities because it was not necessary to accomplish our
audit objective. We did, however, gain an understanding of OPCSO’s methods of accounting for
disaster-related costs and its procurement policies and procedures.


                                        BACKGROUND

OPCSO operates jail facilities to provide care, custody, and control of incarcerated subjects in
Orleans Parish, Louisiana. The sheriff executes all writs, orders, and processes of the Traffic,
Municipal, and Criminal Courts. Before Hurricane Katrina, OPCSO maintained 7,200 beds to
house incarcerated subjects. Many of the facilities that OPCSO owned or operated sustained
significant damages and will remain under reconstruction for several years. OPCSO operated a
medical facility to provide medical services for the inmates inside the Templeman I facility and
housed inmates in the House of Detention facility.

Several OPCSO-operated buildings sustained severe flood damage to most of the main
mechanical and electrical services located in the basement levels. The loss of power necessitated
the use of several large and small generators, which OPCSO used for extended periods in its own
buildings and those owned by the City.

The House of Detention has a two-story base with a nine-story tower at the center. The ground
floor of this building sustained floodwaters to a depth of 3 to 4 feet. The damaged electrical and
heating, ventilation, and air conditioning (HVAC) equipment located on this floor served the
entire building. Therefore, the entire building was out of service without water, HVAC, and
electrical operations for several days.


                                     RESULTS OF AUDIT

OPCSO accounted for FEMA funds on a project-by-project basis as required by federal
regulations. However, OPCSO did not always expend the funds according to federal regulations
and FEMA guidelines. As a result, we question $3,532,607 of ineligible and unsupported costs
that OPCSO claimed. In addition, FEMA should deobligate and put to better use $285,771 in
federal funds that exceeded the actual amounts OPCSO incurred and claimed.




                                                2

Finding A: Legal Responsibility for Work

FEMA obligated $1,818,576 under Project 15556 and $422,819 under Project 16871 for work on
two facilities that OPCSO did not own and, therefore, was not legally responsible for at the time
of the disaster. Federal regulations at 44 CFR 206.223(a) require that, to receive federal funding,
the subgrantee must be legally responsible for the facility. Also, the Public Assistance Guide
(FEMA 322, p. 25) states that an eligible applicant must be legally responsible for the damaged
facility at the time of the disaster. FEMA authorized funding under Project 15556 for OPCSO to
construct a temporary medical facility to replace the Templeman I facility. FEMA also
authorized funding under Project 16871 for the operation and architectural and engineering
(A&E) service fees associated with repairs to the House of Detention facility. However, the City
of New Orleans, Louisiana, not OPCSO, owned both of these facilities. OPCSO officials stated
that the $422,819 for A&E fees associated with the House of Detention facility were their legal
responsibility even though the city owned the building. However, we performed a limited
review of several of the city’s projects and determined that one of the city’s projects (Project
924) included $288,302 for A&E fees related to permanent work for the House of Detention.

Because the City of New Orleans owns Templeman I and the House of Detention and there was
no written agreement between the city and OPCSO regarding legal responsibility, we question
$1,818,576 under Project 15556 and $422,819 under Project 16871 as ineligible. FEMA and
OPCSO agreed with the recommendation to disallow the $1,818,576, and FEMA has deobligated
this amount from Project 15556. FEMA did not comment on our finding and recommendation
for the House of Detention.

Finding B: Use of Generators

OPCSO claimed $1,190,903 ($984,047 under Project 1677 and $206,856 under Project 15990)
for the use of generators to restore power for 2 years after Hurricane Katrina (August 30, 2005–
August 29, 2007). We question the entire amount claimed because OPCSO could have used
electricity provided by the local power company beginning 2 months after the hurricane, and
OPCSO could not adequately support any of the costs it claimed. Cost principles at 2 CFR Part
225, Appendix A, state that, to be allowable, a cost must be necessary and reasonable for proper
and efficient performance and administration of federal awards (section C.1.a) and must be
adequately documented (section C.1.j).

According to FEMA’s Project Worksheet 16939, written for one of OPCSO’s small projects, the
local power company restored power to the area in late October 2005. We corroborated this fact
with the local power company. Therefore, using generators instead of electricity from the local
power company was not necessary or reasonable for 22 months of the 24-month period. Further,
OPCSO could not provide adequate documentation to support the $1,190,903 claimed for
generators under Projects 1677 and 15990. To support its claim, OPCSO could only provide us
with a copy of its Force Account Equipment Summary Record, which contained incorrect
equipment rates. OPCSO did not provide maintenance logs or supervisory reports documenting
use of the generators.




                                                 3

Therefore, we question $1,190,903 consisting of (1) $1,091,661 as ineligible because the costs of
using generators for 22 months of the 24-month period were unnecessary and unreasonable and
(2) the remainder of $99,242 as unsupported because OPCSO could not adequately support any
of the costs it claimed.2 If FEMA somehow proves that using the generators for 2 years was
necessary and reasonable, we would still question the entire amount as unsupported unless
OPCSO provides additional documentation that we determine is adequate.

FEMA officials stated that they would ask OPCSO why it did not use the local power company
when electricity became available in late October.

Finding C: Estimated Project Costs

The amount FEMA estimated and approved for nine projects exceeded the claimed amounts by
$285,771. Therefore, FEMA should deobligate $285,771 and put those federal funds to better
use. OPCSO, GOHSEP, and FEMA officials agreed with this finding and recommendation.

Finding D: Salvage Value for Motor Homes

OPCSO should return to FEMA two motor homes or the retail value of the motor homes
because, at the time of our audit, OPCSO was no longer using them for their intended purpose.
In December 2005, OPCSO received $160,000 for its October 2005 purchase of two motor
homes under Project 373 to be used for administrative and command and control functions. An
OPCSO official told us that one of the motor homes was currently being used for various Mardi
Gras activities and the other one was parked in a warehouse. Pursuant to 44 CFR 13.32(e) and
13.33(b) and Disaster Assistance Policy 9525.12, the disposition of equipment or residual unused
supplies purchased by the grantee or subgrantee with a current fair market value exceeding
$5,000 requires compensation to FEMA when the items are no longer needed for the current
operation of the FEMA Public Assistance Program or another federally-sponsored program or
project. At the time of our audit, our conservative estimate of the fair market value for the two
motor homes was $81,060. Therefore, FEMA should disallow approximately $81,060 from
Project 373 for the fair market value of the two motor homes or acquire ownership of them.
FEMA agreed to determine the fair market value of the two motor homes.

Finding E: Project Completion

OPCSO received $48,857 under Project 1011 for lock replacement and electrical work, but it did
not complete all authorized project work. The estimate for lock replacement work totaled
$24,500; however, OPCSO did not perform work valued at $19,249 of the $24,500. According
to 44 CFR 206.205(a), Small Projects, failure to complete a small project may require the
repayment of federal funds. Therefore, we question $19,249 as ineligible. OPCSO officials
agreed with this finding. FEMA officials stated that they would review the documentation
before taking any action.




2
    $1,190,903 times 22/24 months equals $1,091,661; $1,190,903 times 2/24 months equals $99,242.


                                                         4

                                      RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region VI:

Recommendation #1: Disallow $1,818,576 ($1,818,576 federal share) of ineligible costs under
Project 15556 for work that was not OPCSO’s legal responsibility (finding A).3

Recommendation #2: Disallow $422,819 ($422,819 federal share) of ineligible costs under
Project 16871 for A&E services that were not OPCSO’s legal responsibility (finding A).

Recommendation #3: Disallow $1,091,661 ($1,091,661 federal share) of ineligible costs under
Projects 1677 and 15990 for the unnecessary, unreasonable, and unsupported costs of using
generators (finding B).

Recommendation #4: Disallow $99,242 ($99,242 federal share) of unsupported costs under
Projects 1677 and 15990 for the use of generators (finding B).

Recommendation #5: Deobligate $285,771 ($285,771 federal share) of funds that exceeded
amounts claimed and put those federal funds to better use (finding C).

Recommendation #6: Disallow approximately $81,060 of ineligible costs under Project 373 for
the fair market value of two motor homes or acquire ownership of the motor homes (finding D).

Recommendation #7: Disallow $19,249 ($19,249 federal share) in ineligible costs paid to
OPCSO for a small project that was not completed (finding E).


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with FEMA, GOHSEP, and OPCSO officials during our
audit and included their comments in this report, as appropriate. We also provided written
summaries of our findings and recommendations in advance to these officials and discussed
them at exit conferences held with FEMA and GOHSEP officials on August 3, 2011, and with
OPCSO officials on August 2, 2011. FEMA officials generally agreed with our findings and
recommendations.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.



3
 FEMA has already taken action on this recommendation to disallow $1,818,576 ($1,818,576 federal share) under
Project 15556.


                                                      5

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this report
will be posted to our website, with the exception of sensitive information identified by your
office. Significant contributors to this report were Tonda Hadley, Judy Martinez, Ronald
Jackson, Bryan Chauvin, and Natalie Fussell.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Tonda Hadley at (214) 436-5200.


cc:	   Administrator, FEMA
       Audit Liaison, FEMA Louisiana Recovery Office
       Audit Liaison, FEMA Region VI
       Audit Liaison, FEMA (Job Code G-11-007)
       Audit Liaison, DHS




                                               6

                                                                          EXHIBIT

                     Schedule of Projects Audited

                 August 29, 2005, to February 11, 2011

           Orleans Parish Criminal Sheriff’s Office, Louisiana

                 FEMA Disaster Number 1603-DR-LA


                                                                   Funds Put
 Large                                                              to Better
Project     Project            Amount           Amount                 Use
Number     Amount              Claimed         Questioned         (Finding C)
 19011     $10,215,158          $ 1,497,045     $         0           $       0
 16807       6,209,324            6,205,604               0               4,381
   668       2,872,972            2,872,982               0                   0
 15556       1,818,576               18,749       1,818,576                   0
   238       1,478,784            1,536,999               0                   0
   135         988,613              993,427               0                   0
  1677         984,383              984,047         984,047                 336
  1042         684,897              651,823               0              33,074
 16849         543,614              531,395               0              12,218
 16871         422,819              422,819         422,819                   0
   362         393,488              159,235               0             234,253
 15870         292,419              293,155               0                   0
 16126         277,845              277,606               0                 239
 18258         261,000              252,861               0                   0
 16125         229,043              229,043               0                   0
 15990         206,856              206,856         206,856                   0
   929         196,068              196,068               0                   0
   373         160,000              160,000          81,060                   0
 17453         148,910              149,114               0                   0
 18970         145,918              145,853               0                  65
   572          74,345               74,345               0                   0
 18074          68,962                    0               0                   0
   923          67,573               66,993                                 580
   303          58,825               58,200                0                625
 Large
Project
Subtotal   $28,800,392          $17,984,219      $3,513,358          $285,771




                                 7

                                                                           EXHIBIT





                     Schedule of Projects Audited

                 August 29, 2005, to February 11, 2011

           Orleans Parish Criminal Sheriff’s Office, Louisiana

                 FEMA Disaster Number 1603-DR-LA


                                                                   Funds Put
 Small                                                              to Better
Project       Project            Amount            Amount              Use
Number        Amount             Claimed          Questioned      (Finding C)
   733        $   52,445         $    52,445       $        0        $        0
  1011            48,857              48,857           19,249                 0
 14007            46,674              46,674                0                 0
 16207            39,993              39,993                0                 0
  3263            39,414              39,414                0                 0
 16939            33,000              33,000                0                 0
 15927            27,358              27,358                0                 0
  1282            25,784              25,784                0                 0
  6394            20,207              20,207                0                 0
  2033            18,630              18,630                0                 0
  1048            18,096              18,096                0                 0
  1020            15,913              15,913                0                 0
 17347            14,215              14,215                0                 0
  4264             8,845               8,845                0                 0
  1483             5,707               5,707                0                 0
  3034             4,965               4,965                0                 0
  1323             2,819               2,819                0                 0
   904             2,240               2,240                0                 0
 Small
Project
Subtotal      $   425,162         $     425,162    $   19,249        $       0
 Total
   All
Projects      $29,225,554         $18,409,381      $3,532,607        $285,771




                                   8

